         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Management of Los Alamos National
Laboratory's Cyber Security Program




DOE/IG-0880                          February 2013
                                  Department of Energy
                                    Washington, DC 20585
                                        February 11, 2013



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management of Los Alamos
                         National Laboratory's Cyber Security Program"

INTRODUCTION AND OBJECTIVE

The Los Alamos National Laboratory (LANL), operated by the National Nuclear Security
Administration on behalf of the Department of Energy, is one of the world's largest multi-
disciplinary laboratories and is primarily responsible for helping to ensure the safety and
reliability of the Nation's nuclear stockpile as part of the Department's Stockpile Stewardship
Program. In addition, the Laboratory is a major contributor to the energy, defense,
supercomputing and basic science research missions of the Department. To accomplish program
goals and objectives, LANL operates and manages numerous information systems and networks
to support the research, business and communication needs of its users. Although LANL spends
a significant amount of funds on information technology (IT) activities, we were unable to obtain
an accurate amount due to the Laboratory's limited ability to track its IT spending.

Prior Office of Inspector General reviews identified weaknesses related to LANL's IT program.
For instance, findings in the Special Inquiry Report on Selected Controls over Classified
Information at the Los Alamos National Laboratory (OAS-SR-07-01, November 2006) revealed
that critical cyber security internal controls and safeguards were not functioning as intended and
monitoring by both laboratory and Federal officials was not adequate. In addition, past
evaluations supporting our Federal Information Security Management Act of 2002
responsibilities have identified weaknesses with LANL's cyber security program. In that
connection, we initiated this audit to determine whether LANL effectively managed its cyber
security program.

RESULTS OF AUDIT

LANL had taken steps to address concerns regarding its cyber security program raised in prior
evaluations. Our current review, however, identified continuing concerns related to LANL's
implementation of risk management, system security testing and vulnerability management
practices. In particular:

   •   LANL had not always developed and implemented an effective risk management process
       consistent with Federal requirements. For instance, system-level risk assessments did not
                                                 2


       always provide details regarding vulnerabilities and threats. Even though specifically
       required, risk assessments did not consider or evaluate how combinations of
       vulnerabilities and threats could increase the overall risk to an information system.

   •   LANL had not always ensured that it had developed, tested and implemented adequate
       controls over its information systems. For example, LANL had only tested a small
       fraction of the required security controls during the most recent authorization period for
       two of the seven national security systems and the one unclassified system that we
       reviewed. Further, LANL's testing was not always adequate to ensure that controls
       and/or control enhancements were functioning as designed.

   •   Critical and high-risk vulnerabilities had also not always been properly addressed.
       Notably, we identified issues during scans of both national security and unclassified
       systems. For example, we identified 5 critical and 15 high-risk weaknesses on the 4
       national security systems scanned, some of which dated back to 2008. Similarly,
       vulnerabilities related to patch management, access controls and system integrity of web
       applications were identified on certain unclassified systems we tested.

The issues identified occurred, in part, because of a lack of effective monitoring and oversight of
LANL's cyber security program by the Los Alamos Site Office, including approval of practices
that were less rigorous than those required by Federal directives. For instance, the Los Alamos
Site Office permitted the Laboratory to test only a limited set of security controls when
reauthorizing systems to operate, resulting in a number of critical/required controls not being
tested. In addition, we found that LANL's Information Technology Directorate had not followed
NNSA policies and guidance for assessing system risk and had not fully implemented the
Laboratory's own policy related to ensuring that scanning was conducted to identify and mitigate
security vulnerabilities in a timely manner.

While additional action is needed, we found that LANL had made significant improvements to
its cyber security program in recent years. Specifically, LANL improved the protection of
national security systems and data through the elimination or disablement of data ports on
machines containing classified information and ensured that incompatible security personnel
functions were segregated and related compensating controls were in place and operational.
LANL also segregated vulnerable computers and equipment no longer supported by vendors
from the rest of the unclassified computing environment.

Without further improvements to its cyber security program, however, LANL's systems remain
at a higher than necessary risk of compromise. Specifically, LANL's transition to a Risk
Management Framework, which is heavily reliant on continuous monitoring, could be hindered
by the issues identified in our report, including a lack of understanding by responsible
individuals as to the totality of risks associated with the systems. Furthermore, without effective
vulnerability scanning and remediation of identified weaknesses, LANL's unclassified and
national security networks face a higher than necessary risk of compromise. In light of the
weaknesses identified, we made several recommendations that, if fully implemented, should aid
the site in implementing its risk management and continuous monitoring processes.
                                              3


MANAGEMENT REACTION

NNSA management concurred with the report's findings and recommendations and agreed to
take necessary corrective actions. Management's formal comments are included in their entirety
in Appendix 3.

Attachment

cc:   Deputy Secretary
      Acting Under Secretary for Nuclear Security
      Chief Information Officer
      Chief of Staff
      Chief Health, Safety and Security Officer
REPORT ON MANAGEMENT OF LOS ALAMOS NATIONAL
LABORATORY'S CYBER SECURITY PROGRAM


TABLE OF
CONTENTS


Cyber Security

Details of Finding ............................................................................................................................1

Recommendations and Comments ...................................................................................................7


Appendices

1. Objective, Scope and Methodology ...........................................................................................9

2. Prior Reports ............................................................................................................................11

3. Management Comments ..........................................................................................................13
MANAGEMENT OF LOS ALAMOS NATIONAL LABORATORY'S
CYBER SECURITY PROGRAM

PROGRAM          The Los Alamos National Laboratory (LANL) made significant
IMPROVEMENTS     improvements to its cyber security program in recent years. For
                 instance, in response to our Special Inquiry Report on Selected
                 Controls over Classified Information at the Los Alamos National
                 Laboratory (OAS-SR-07-01, November 2006), LANL improved
                 the protection of systems and data through the elimination or
                 disablement of data ports on machines containing classified
                 information. LANL also worked to ensure that incompatible
                 security personnel functions were segregated and related
                 compensating controls were in place and operational. In addition
                 to the actions taken in response to our previous report, site officials
                 worked to reduce risk by segregating vulnerable computers and
                 equipment no longer supported by vendors from the rest of the
                 unclassified computing environment. Site officials also worked
                 over the past year to remediate certain vulnerabilities identified
                 during our Fiscal Year (FY) 2011 Federal Information Security
                 Management Act of 2002 (FISMA) evaluation. In preliminary
                 comments on our draft report, Los Alamos Site Office officials
                 stated that they had taken measures to resolve weaknesses
                 identified during the course of our audit work. However, we were
                 unable to validate these recent corrective actions due to the timing
                 of our audit work.

Managing         While the corrective actions we validated are significant and
Cyber Security   noteworthy, our audit work found that additional actions are
                 necessary before LANL can successfully shift its efforts to a
                 continuous monitoring process. In particular, we identified
                 problems with certain elements necessary to support an effective
                 monitoring process.

                                           Risk Management

                 LANL had not always developed and implemented an effective
                 risk management process consistent with Federal requirements.
                 Specifically, system-level risk assessments did not always include
                 sufficient detail about specific areas of threats and/or
                 vulnerabilities. For example, two of the eight risk assessments
                 reviewed did not provide adequate details regarding the
                 vulnerabilities and threats to support effective decision-making.
                 Further, the assessments did not consider combinations of
                 vulnerabilities and threats that may have increased risks to the
                 systems.

                 We learned that officials relied solely on reports generated by
                 LANL's Rapid Assessment Process to Outline Risk (RAPTOR)



Page 1                                                             Details of Finding
         tool to assess system risk during the 2008 accreditation process.
         While the tool was designed to enhance the risk management
         process, it was brought to the site's attention during an external
         evaluation that there were flaws in the way risks were determined
         during the process. The use of RAPTOR was discontinued
         because it only analyzed individual threats and not how threats
         were correlated. In addition, the process did not consider whether
         the system would be subject to additional threats or vulnerabilities
         in the overall operating environment. However, during the recent
         reaccreditation process, LANL chose to carry forward its risk
         assessments, including those conducted under the RAPTOR
         process, even though the assessment process under which they
         were completed had been determined to be ineffective. As such, it
         is possible that an asset assessed as low-risk by itself could become
         vulnerable when used in combination with other components. As
         noted by the National Institute of Standards and Technology
         (NIST), it is important that the output of different risk assessment
         activities be correlated in a meaningful manner to help protect the
         systems and information.

                                   Security Testing

         LANL did not ensure that it had developed adequate controls over
         its systems and tested them for effectiveness. Although Federal
         policies and procedures directed agencies to move towards a
         continuous monitoring approach, we found that LANL's activities
         were not supportive of this method. In particular, of the three
         moderate-risk systems we reviewed, including two national
         security systems, we found that LANL had implemented a rapid
         reaccreditation process which eliminated the testing of the majority
         of controls and control enhancements for systems that had no
         significant changes. LANL took this approach even though it had
         been nearly 3 years since the systems were last accredited and
         authorized to operate. NIST required, at minimum, the testing of
         263 of the 628 (nearly 42 percent) controls and control
         enhancements for accreditation of moderate-risk systems, and the
         National Nuclear Security Administration's (NNSA) system
         authorization process required all controls and control
         enhancements be tested every 3 years to ensure they continue to
         operate as intended. However, LANL received permission from
         the Los Alamos Site Office to test only 41 of the 263 (16 percent)
         controls and control enhancements. We found that controls not
         fully tested included those related to account management,
         identification and authentication, incident response, the use of
         cryptography, protection of information at rest, and software and
         information integrity.



Page 2                                                    Details of Finding
         In addition, when control testing was conducted, it was not always
         adequate to ensure that the controls and control enhancements
         were functioning as designed. Specifically, during a review of
         eight security plans and the related control testing responses, we
         identified various responses that either did not fulfill the
         requirement of the control or indicated that the control was not
         applicable to the system when in fact it should have been tested. In
         particular, testing responses included in the documentation
         reviewed did not always address the control being tested. For
         example, even though one control enhancement focused on
         preventing users from introducing removable media into the
         information system, we found that the results did not address the
         requirement. Similarly, documented results for another control
         enhancement revealed that incoming electronic mail was not
         accepted onto the system even though the purpose of the test was
         to address controls over removable media. Therefore, the
         requirement established by the control enhancement was not met
         by the tests performed by LANL even though it was noted as
         passing in the system's security plan.

         We also noted numerous instances in which only a portion of a
         control or control enhancement was tested. For example, although
         one control required the establishment and review of a particular
         subset of policies and procedures, the documented response to
         support testing of that control was that the system owner was
         aware of the control. Based on such general responses, we
         questioned whether the evaluators of the system could gain
         adequate assurance that controls were entirely in place and
         sufficiently working as intended, as required by NIST Special
         Publication (SP) 800-53, Revision 3, Recommended Security
         Controls for Federal Information Systems and Organizations. In
         addition, discrepancies such as these in the testing process could
         negatively impact the ability of the site to implement an effective
         continuous monitoring process, as security weaknesses and
         deficiencies may not be identified in a timely manner, potentially
         resulting in costly and/or inefficient resolutions.

                             Vulnerability Management

         During our review, we identified a number of technical
         vulnerabilities on national security and unclassified systems related
         to patch management and/or controlling access to information
         systems. In particular, critical and high-risk vulnerabilities were
         identified during scans of servers supporting the four national
         security systems we tested. We identified 5 critical and 15 high-
         risk weaknesses on the 4 systems, including vulnerabilities that
         were not remediated even though patches had been available since

Page 3                                                    Details of Finding
         2008. Many weaknesses identified related to vulnerabilities in
         various types of software, including software used to support office
         automation and general productivity. According to LANL policy,
         unaddressed critical vulnerabilities should have resulted in
         blockage to the system within 24 hours, and high-risk
         vulnerabilities should have resulted in a system blockage if the
         vulnerabilities were not mitigated within 5 days. Although LANL
         had developed a deviation process for identified vulnerabilities that
         could not be addressed on a system without causing reliability or
         other issues, our analysis found that only one of the vulnerabilities
         had been given a deviation, while the others had not been
         remediated in a timely manner.

         Similarly, test work performed on unclassified systems supporting
         our FY 2012 Financial Statement Audit and FISMA revealed a
         number of other vulnerabilities. As noted in our report, LANL had
         taken action to remediate certain previously identified
         vulnerabilities. However, we continued to find numerous
         weaknesses that were similar in type, frequency and risk level to
         those identified during the prior year. Specifically:

            •   Although LANL had initiated steps to address previously
                identified conditions related to network and enterprise
                application account management, officials had not
                performed a review of all network accounts. Furthermore,
                LANL officials had not established a process to remove
                inactive user access in a timely manner for the unclassified
                network and one major application. In preliminary
                comments on our draft report, the Los Alamos Site Office
                management noted that actions had been taken by LANL to
                correct the issue. While the Site Office considered the
                issue resolved, we were unable to validate the corrective
                actions that occurred subsequent to our testwork.

            •   Network servers and devices were configured with default
                or easily guessed login credentials or required no
                authentication. For example, 15 web applications and 5
                servers were configured with default or blank passwords.
                Additionally, two network servers were found to have
                configurations to accept connections from any system
                without the use of authentication or similar access controls.
                Also, 10 network servers and devices were not
                appropriately configured and could have allowed
                unauthorized remote control of affected systems.




Page 4                                                    Details of Finding
                              •   Five applications accepted malicious input data that could
                                  be used to launch attacks against legitimate application
                                  users, which could result in unauthorized access to the
                                  applications.

                              •   LANL had not fully implemented existing security patch
                                  management and vulnerability management procedures.
                                  Specifically, tests of 191 network servers supporting
                                  LANL's financial applications and data or providing core
                                  network services revealed that 73 (38 percent) were
                                  running operating systems and client applications without
                                  current security patches – all of which were released more
                                  than 30 days prior to our testing. We also found that
                                  LANL continued to maintain a significant number of
                                  operating systems, client applications and other various
                                  software no longer supported by the vendor.

                           Notably, our performance testing did not identify significant
                           weaknesses related to LANL's implementation of patch
                           management procedures for desktop systems. While this result
                           was positive, it remains important for LANL to remediate all
                           vulnerabilities in a timely manner to help protect against
                           unauthorized access to systems and data.

Performance Monitoring The issues identified occurred, in part, because of a lack of
and Policies and       effective monitoring and oversight of LANL's cyber security
Procedures             program by the Los Alamos Site Office, including approval of
                       practices that were less rigorous than those required by Federal
                       directives and inappropriate delegation of security functions. In
                       addition, in many cases LANL's Information Technology
                       Directorate did not follow policies and procedures established by
                       NNSA to ensure that Federal requirements for cyber security were
                       fully implemented.

                                               Monitoring and Oversight

                           The Los Alamos Site Office had not provided adequate monitoring
                           and oversight of LANL's cyber security program. In particular, the
                           Site Office approved practices that were less rigorous than those
                           required by Federal directives. For example, the rapid
                           reaccreditation process approved by the Site Office allowed LANL
                           to test only a limited number of those controls related to 20 areas
                           determined to be the most important for ensuring system security,
                           as identified in the Consensus Audit Guidelines established by
                           various government and private sector entities. Specifically, the
                           process approved for LANL's moderate-risk systems resulted in
                           testing just over half of the controls included in the Consensus

Page 5                                                                     Details of Finding
         Audit Guidelines. This resulted in the site testing only about 20
         percent of all required NIST controls and control enhancements.
         In addition, although an NNSA Headquarters official stated that he
         did not agree with the rapid reaccreditation process used at the
         Laboratory, it had been approved by the Authorizing Official – the
         individual responsible for formal risk acceptance for LANL's
         systems – at the Los Alamos Site Office. Site officials believed
         that the use of the rapid reaccreditation process was justified based
         on the need to utilize a risk management approach to cyber
         security. However, as noted in our report, the risk management
         approach used by the site contained flaws that could impact the
         ability to adequately consider vulnerabilities and threats to
         information systems. In addition, even controls generally
         considered the most critical to protecting information and systems
         were not always tested. Absent an effective risk management
         approach and related testing of security controls, it is unlikely that
         LANL will be able to implement a continuous monitoring process
         that adequately protects its information systems.

                                Policy and Procedures

         LANL's Information Technology Directorate neither followed
         NNSA guidance for assessing system risk nor fully adhered to
         Laboratory policy related to vulnerability management. For
         instance, LANL officials did not always fully identify and detail
         specific risks to systems as required by the NNSA Program Cyber
         Security Plan. While system-level risk assessments considered
         individual security threats such as unauthorized actions by a
         perpetrator and privileged access vulnerabilities, LANL officials
         did not correlate how a combination of each of those threats could
         result in additional risks to the system.

         In addition, officials had not remediated critical and high-risk
         vulnerabilities within timeframes established in both the Classified
         and Unclassified Network Continuous Program of Automated
         Testing (CPAT) Manuals. According to the CPAT Manuals,
         critical vulnerabilities were required to be mitigated within 24
         hours. If not remedied within the prescribed timeframe, the
         Manuals required the systems to be blocked. While high-risk
         vulnerabilities were permitted 5 days to be mitigated before system
         blocking, many of the vulnerabilities identified in our report
         significantly exceeded this timeframe. Furthermore, LANL's
         vulnerability scanning procedures did not require the performance
         of authenticated network scanning, which could have identified
         vulnerabilities that may have been exploited by an individual with
         access to its networks. Authenticated scanning utilizes login



Page 6                                                     Details of Finding
                       names and passwords to simulate a user being on the system and is
                       an important component to ensuring a complete and effective
                       vulnerability management program.

Information Systems    Despite the improvements made at LANL, the upcoming transition
and Networks at Risk   to the Risk Management Framework, which is heavily reliant on
                       continuous monitoring, could be hindered due to a lack of
                       understanding by responsible individuals of the total risks
                       associated with the systems. Furthermore, without effective
                       vulnerability scanning and remediation of identified weaknesses,
                       LANL's unclassified and classified networks face a higher than
                       necessary risk of compromise.

                       Exploitation of vulnerabilities can cause considerable disruptions
                       to operations and increases the risk to sensitive data and/or
                       programs. Furthermore, there is an increase of possible theft or
                       improper disclosure of confidential information. Also, as indicated
                       in our report on The Department's Unclassified Cyber Security
                       Program – 2011 (DOE/IG-0856, October 2011), recovering from
                       successful cyber security attacks can be costly and time-
                       consuming. Therefore, sites must continue to be vigilant in cyber
                       security protections.

RECOMMENDATIONS        To help improve the effectiveness of LANL's cyber security
                       program, including enhancing the site's risk management and
                       continuous monitoring processes, we recommend that the Under
                       Secretary for Nuclear Security, in conjunction with the NNSA
                       Chief Information Officer and the Manager, Los Alamos Site
                       Office:

                            1. Correct, through implementation of appropriate controls,
                               the technical vulnerabilities identified in this report;

                            2. Ensure that all Federal cyber security requirements are
                               met, particularly in the areas of system security control
                               testing and risk assessments; and,

                            3. Direct LANL to modify internal procedures to include
                               scanning processes designed to identify all internal
                               vulnerabilities on the national security and unclassified
                               computing environments.

MANAGEMENT             NNSA management concurred with each of the report's
REACTION               recommendations and indicated that corrective actions would be
                       taken to address the issues identified. Management stated that
                       LANL had taken aggressive measures to develop comprehensive



Page 7                                             Recommendations and Comments
                   cyber security procedures within the last 5 years. In addition,
                   management commented that it remains committed to maturing its
                   cyber security processes and expanding the use of risk-based
                   methodologies to drive more effective and efficient outcomes.

AUDITOR COMMENTS   Management's comments and planned corrective actions are
                   responsive to our recommendations. Management's comments are
                   included in Appendix 3.




Page 8                                                                 Comments
Appendix 1

OBJECTIVE     To determine whether the Los Alamos National Laboratory
              (LANL) effectively managed its cyber security program.

SCOPE         We conducted the audit from January 2012 to February 2013, at
              LANL in Los Alamos, New Mexico. The scope of the audit was
              limited to a review of LANL's cyber security program.
              Vulnerability scanning was performed on selected national security
              and unclassified systems.

METHODOLOGY   To accomplish the audit objective, we:

                   •   Reviewed applicable laws and regulations, including
                       those pertaining to cyber security;

                   •   Reviewed applicable standards and guidance issued by
                       the Office of Management and Budget and the National
                       Institute of Standards and Technology;

                   •   Reviewed prior reports issued by the Office of Inspector
                       General;

                   •   Interviewed officials from LANL and the Los Alamos
                       Site Office to gain an overall understanding of the cyber
                       security program;

                   •   Performed a detailed review of eight systems including
                       seven national security systems (two moderate-risk and
                       five high-risk) and one moderate-risk unclassified
                       system;

                   •   Performed a detailed analysis of the security plans and
                       implementation of technical controls; and,

                   •   Reviewed risk assessments to determine the potential
                       level of risk.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objectives. Accordingly, we
              assessed significant internal controls and LANL's implementation
              of the GPRA Modernization Act of 2010 and determined that it had
              not established performance measures for cyber security. Because
              our review was limited, it would not have necessarily disclosed all


Page 9                                     Objective, Scope and Methodology
Appendix 1 (continued)

                    internal control deficiencies that may have existed at the time of
                    our evaluation. We relied on computer-processed data to satisfy
                    our objective. In particular, computer assisted audit tools were
                    used to perform probes of various networks and drives. We
                    validated the results of the scans by confirming weaknesses
                    disclosed with responsible on-site personnel and performed other
                    procedures to satisfy ourselves as to the reliability and competence
                    of the data produced by the tests.

                    Management waived an exit conference.




Page 10                                          Objective, Scope and Methodology
Appendix 2

                                      PRIOR REPORTS

Office of Inspector General Reports

   •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2012
       (DOE/IG-0877, November 2012). The evaluation found that the Department of Energy
       (Department) had taken steps to address previously identified cyber security weaknesses
       and enhance its unclassified cyber security program, including taking corrective actions
       to address 40 of 56 weaknesses identified during our prior-year evaluation. However, our
       evaluation found that the types and severity of weaknesses continued to persist and
       remained consistent with prior years. In particular, the weaknesses identified involved
       problems with access controls, vulnerability management, integrity of web applications,
       planning for continuity of operations and change control management. These weaknesses
       occurred, in part, because Department elements had not ensured that cyber security
       requirements were fully developed and implemented. In addition, programs and sites had
       not always effectively monitored performance to ensure that appropriate controls were in
       place.

   •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2011
       (DOE/IG-0856, October 2011). The evaluation report noted that the Department had
       taken steps over the past year to address previously identified cyber security weaknesses
       and enhance its unclassified cyber security program. While these were positive steps,
       additional action is needed to further strengthen the Department's unclassified cyber
       security program and help address threats to its information and systems. For example,
       our Fiscal Year (FY) 2011 evaluation disclosed that corrective actions had been
       completed for only 11 of the 35 cyber security weaknesses identified in our FY 2010
       review. In addition, we identified numerous weaknesses in the areas of access controls,
       vulnerability management, web application integrity, contingency planning, change
       control management and cyber security training. The weaknesses identified occurred, in
       part, because Departmental elements had not ensured that cyber security requirements
       included all necessary elements and were properly implemented.

   •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2010
       (DOE/IG-0843, October 2010). The evaluation disclosed that the Department had taken
       steps to enhance its unclassified cyber security program, including resolving five of seven
       cyber security weaknesses identified during our FY 2009 evaluation. While these were
       positive accomplishments, additional action is needed to further strengthen the
       Department's unclassified cyber security program and help mitigate threats to its
       information and systems. In this context, our review revealed weaknesses in the areas of
       access controls, configuration and vulnerability management, web application integrity,
       and security planning and testing. The weaknesses identified occurred, at least in part,
       because Departmental elements had not always ensured that cyber security requirements
       were effectively implemented. In addition, the Department, including the National
       Nuclear Security Administration, had not adequately monitored cyber security
       performance.




Page 11                                                                            Prior Reports
Appendix 2 (continued)

  •   Audit Report on Certification and Accreditation of the Department's National Security
      Information Systems (DOE/IG-0800, August 2008). The audit found that additional
      actions are needed to strengthen the certification and accreditation process and reduce the
      risk of compromise to these systems. Several problems contributed to the weaknesses
      identified during our review. In particular, the Department had not fully developed and
      implemented adequate cyber security policies to ensure that national security information
      systems were adequately protected. In addition, Federal and contractor officials did not
      always utilize effective mechanisms to monitor performance of security controls.
      Without improvements, the Department lacks assurance that its classified data and
      systems are secure from numerous threats and vulnerabilities. The issues identified
      during our review were similar to those that contributed to an environment in which the
      theft of classified information at the Los Alamos National Laboratory (LANL) occurred
      in 2006. We made several recommendations designed to further enhance security over
      the Department's national security information systems.

  •   Special Inquiry on Selected Controls over Classified Information at the Los Alamos
      National Laboratory (OAS-SR-07-01, November 2006). This special inquiry disclosed
      circumstances surrounding an incident at LANL. Because of cyber security and Privacy
      Act considerations, detailed findings are provided in a non-public report that includes
      specific recommendations to strengthen security policy and procedures. We found that
      the security framework relating to this incident at LANL was seriously flawed.
      Specifically, our review disclosed that in a number of key areas, security policy was non-
      existent, applied inconsistently or not followed. Additionally, critical cyber security
      internal controls and safeguards were not functioning as intended. Further, monitoring by
      both LANL and Federal officials was inadequate. Our review of matters related to the
      most recent incident identified a cyber security environment that was inadequate given
      the sensitivity of operations at LANL. While significant procedural weaknesses were
      evident, human failure, whether willful or not, was the key component in this matter. In
      our report, we identified a number of specific actions associated with the latest series of
      events that were in contravention of recognized security policies and procedures.




Page 12                                                                           Prior Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 13                            Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
                                                                    IG Report No. DOE/IG-0880

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
